No. 19IN THE

MEDTRONIC, INC.,

Petitioner,

V.
MARK A. BARRY, M.D.,

Respondent.

ON PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE FEDERAL CIRCUIT

CERTIFICATE OF SERVICE

I, Seth P. Waxman, a member of the bar of this Court, hereby certify that, on
this 26th day of September, 2019, all parties required to be served have been served
copies of the Petition for a Writ of Certiorari in this matter by overnight courier to the
addresses on the attached service list.

SETH . WAXMAN
WIL
R CUTLER PICKERING
ALE AND DORR LLP

1875 Pennsylvania Ave., NW
Washington, DC 20006
(202) 663-6000
seth.waxman@wilmerhale.com

SERVICE LIST
SEAN PAUL DEBRUINE
LAW OFFICE OF SEAN DEBRUINE

1259 El Camino Real, Suite 406
Menlo Park, CA 94025
(650) 269-9140
sean@danjohnsonlawgroup.com

ERWIN CENA
KILPATRICK TOWNSEND & STOCKTON LLP

12730 High Bluff Drive
San Diego, CA 92130
(858) 350-6162
ecena@kilpatricktownsend.com

ADAM HOWARD CHARNES
KILPATRICK TOWNSEND & STOCKTON LLP

2001 Ross Avenue, Suite 4400
Dallas, TX 75201
(214) 922-7106
acharnes@kilpatricktownsend.com

COURTNEY DABBIERE
DAVID CLAY HOLLOWAY
KILPATRICK TOWNSEND & STOCKTON LLP

1100 Peachtree Street, NE, Suite 2800
Atlanta, GA 30309
(404) 815-6500
cdabbiere@kilpatricktownsend.com
cholloway@ktslaw.com

DARIO ALEXANDER MACHLE IDT
KILPATRICK TOWNSEND & STOCKTON LLP

1420 Fifth Avenue, Suite 3700
Seattle, WA 98101
(206) 224-2857
dmachleidt@kilpatricktownsend.com

